March 27, 2003
Evaluation Report No. 03-025


The Division of Supervision and
Consumer Protection’s Examination of
Transactions With Affiliates
                                           TABLE OF CONTENTS

BACKGROUND ........................................................................................................................... 2

RESULTS OF EVALUATION………………………………………………………………….7

FINDING A: DSC'S IDENTIFICATION AND RISK ASSESSMENT OF
AFFILIATES AND AFFILIATE TRANSACTIONS……….….….…..….….….……………9

Identification of Affiliates………………………………………………………………………10

Affiliate Transactions ................................................................................................................. 12

Conclusion……………………………………………………………………….……………...14

Recommendations………………………………………………………………………………14

FINDING B: DSC'S EXAMINATION PROCEDURES FOR REVIEWING
AFFILIATE TRANSACTIONS………..….….….….….….….………………………………15

Risk-Focused Examination Process .......................................................................................... 15

Examination Documentation of Affiliate Procedures………………………………………..16

Conclusion…………………………………………………………………………….………...19

Recommendation.………………………………………………………………………………19

CORPORATION COMMENTS AND OIG EVALUATION………………………….……20

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY.......................................... 21

APPENDIX II: ACRONYMS AND ABBREVIATIONS USED IN REPORT..................... 24

APPENDIX III: EXCERPTS FROM DIVISION OF SUPERVISION AND
CONSUMER PROTECTION MANUAL OF EXAMINATION POLICIES,
SECTION 4.3, RELATED ORGANIZATIONS .….….….….….….………..….…………..25

APPENDIX IV: RELATED ORGANIZATIONS EXAMINATION
DOCUMENTATION MODULE ………....……………………….….….….….……….……27

APPENDIX V: REGIONAL DIRECTORS MEMORANDUM, GUIDELINES FOR
EXAMINATION WORKPAPERS AND DISCRETIONARY USE OF EXAMINATION
DOCUMENTATION MODULES, WITHOUT ATTACHMENTS………...….……..…......37
APPENDIX VI: REGIONAL DIRECTORS MEMORANDUM, REVISED PRE-
EXAMINATION PLANNING MEMORANDA………………………………….……………42

APPENDIX VII: GENERAL INSTRUCTIONS FOR PREPARING FR Y-8 REPORT,
THE BANK HOLDING COMPANY REPORT OF INSURED DEPOSITORY
INSTITUTIONS' SECTION 23A TRANSACTIONS WITH AFFILIATES………………....49

APPENDIX VIII: INSTRUCTIONS FOR PREPARING FR Y-6 REPORT, ANNUAL
REPORT OF BANK HOLDING COMPANIES………………………….….……….………..52

APPENDIX IX: CORPORATION COMMENTS……………………………………………58

APPENDIX X: MANAGEMENT RESPONSES TO RECOMMENDATIONS……….…..62



TABLES:
    Table 1: Related Organizations ED Module-Core Analysis Decision Factors……..17
    Table 2: Documentation Included in Examination Workpapers of OIG Sample....18
    Table 3: Universe of FDIC-Supervised Banks Having Assets Greater Than
             $250 Million and Sample of Banks Selected for OIG Review….…..….…..22
Federal Deposit Insurance Corporation
Washington, D.C. 20434                                                                           Office of Inspector General




   DATE:                               March 27, 2003

   TO:                                 Michael J. Zamorski, Director
                                       Division of Supervision and Consumer Protection




   SUBJECT:                            The Division of Supervision and Consumer Protection’s
                                       Examination of Transactions With Affiliates
                                       (Evaluation Report No. 03-025)

   This report presents the results of our evaluation of the Division of Supervision and Consumer
   Protection’s1 (DSC) examination of Federal Deposit Insurance Corporation (FDIC)-supervised
   financial institution affiliate2 transactions. Affiliates can include bank holding companies,
   subsidiaries of the holding companies, and bank or financial subsidiaries of financial institutions.
   A bank’s relationships and transactions with its affiliated organizations can significantly affect
   the operations and overall financial condition of a financial institution. In this regard, the FDIC
   has been granted authority, under Section 10(b)(4) of the Federal Deposit Insurance Act (FDI
   Act), to examine affiliates, under certain conditions, to disclose the relationship between the
   financial institution and any such affiliate and the effect of the relationship on the bank. In
   addition, as part of the safety and soundness examination of a bank, in situations where affiliated
   organizations are identified, DSC examiners determine whether a bank’s transactions with its
   affiliates are in regulatory compliance and not detrimental to the safety and soundness of the
   financial institution. The importance of ensuring that a sound financial and managerial
   relationship exists between a financial institution and its affiliated organizations can be further
   demonstrated by the fact that material loss reviews3 and other reviews of several bank failures in
   recent years have identified concerns related to the failed financial institutions’ relationships and
   transactions with their respective affiliates.4



   1
     The Division of Supervision and Consumer Protection resulted from the June 30, 2002 merger of FDIC’s Division
   of Supervision (DOS) and Division of Compliance and Consumer Affairs (DCA).
   2
     Section 2(k) of The Bank Holding Company Act of 1956 defines the term “affiliate” as any company that controls,
   is controlled by, or is under common control with another company. Section 3(w) of The Federal Deposit Insurance
   Act provides that the term “affiliate” has the meaning given to such term in section 2(k) of The Bank Holding
   Company Act of 1956.
   3
     A material loss review is a legislatively mandated assessment of the causes for material losses to deposit insurance
   funds sustained as a result of a failure of an FDIC-insured financial institution.
   4
     As an example, in its February 6, 2002 audit report entitled, Issues Related to the Failure of Superior Bank, FSB,
   Hinsdale Illinois, the FDIC OIG concluded that the primary federal regulator did not adequately monitor the
   transactions between Superior Bank and its holding companies and affiliates. In addition, Superior’s dividend
   payments to its holding company had a detrimental effect on the bank’s capital.
The overall objective of our evaluation was to review DSC’s efforts to identify affiliates of
FDIC-supervised institutions and examine transactions with such affiliates. In accomplishing
our objective, we reviewed the following areas.

(1) The manner in which DSC examiners identify and assess the risks associated with affiliates
    and affiliate transactions in determining the examination procedures applied to this activity
    during safety and soundness examinations.

(2) The adequacy of examination procedures actually applied to affiliate activities.

In reviewing these two areas, we addressed the role of the DSC case manager in identifying and
monitoring FDIC-supervised institution affiliates and affiliate transactions.

Details of our overall objective, sub-objectives, scope, and methodology are included as
Appendix I of this report. Appendix II contains a list of acronyms and abbreviations used in this
report.


BACKGROUND

Sections 23A and 23B of the Federal Reserve Act (FR Act), as applied by federal banking
agencies under various federal banking statutes, serve as the primary framework that governs the
extent of affiliation of banks and other business organizations. The federal banking statutes that
apply to the FDIC in this regard include the Banking Act of 1933, the Bank Holding Company
Act of 1956 (BHC Act), and the FDI Act of 1950. Section 18(j) of the FDI Act extended the
provisions of Sections 23A and 23B of the FR Act to state non-member banks, which are
regulated by the FDIC.

The term “affiliate” was initially defined in section 2(b) of the Banking Act of 1933 as any
corporation, business trust, association, or similar organization that comes within one or more of
four categories.

   (1)   Subsidiary of a bank;
   (2)   Common shareholder affiliate;
   (3)   Common directors affiliate; and
   (4)   Holding or controlling affiliates.

Section 2(k) of the BHC Act defines an “affiliate” as any company that controls, is controlled by,
or is under common control with another company. The FDI Act cites the same definition for
“affiliate” as the BHC Act. Section 23A of the FR Act provides a definition of “affiliate” that
includes four major types.

   (1)   Parent holding company and its subsidiaries;
   (2)   Bank subsidiaries of a bank;
   (3)   Companies interlocked with a banking organization; and
   (4)   Sponsored and advised affiliates (on a contractual basis by a bank or by any of the bank’s
         subsidiaries or affiliates).

                                                 2
The Gramm-Leach-Bliley Act of 1999 (GLBA) impacts the types of financial activities that
banks and their affiliates can conduct. The GLBA expanded the definition of affiliate to include
financial subsidiaries of banks. A financial subsidiary is defined in the GLBA as a bank
operating subsidiary engaged in some of the new financial activities permitted for financial
holding companies and their affiliates, such as offering securities and insurance products. The
GLBA also provides for the functional regulation of securities and insurance activities.
Accordingly, banking activities are to be regulated by bank regulators, securities activities by
securities regulators, and insurance activities by state insurance departments.

Appendix III is an excerpt from DSC’s Manual of Examination Policies, Section 4.3, Related
Organizations, that includes a detailed description of the four major types of affiliates defined in
Section 23A of the FR Act.


Bank Holding Companies

Under section 2 of the BHC Act, a “bank holding company” is defined to include any
corporation, partnership, business trust, association, or similar organizations, or any long-term
trust that has control over any bank or over any bank holding company. A company controls a
bank if it owns, controls, or has the power to vote 25 percent or more of the voting stock of a
bank, controls the election of a majority of the bank’s directors, or exercises a controlling
influence over the bank’s management or policies. The Federal Reserve Board (FRB) is
responsible for inspecting all bank holding companies and their nonbank subsidiaries, and the
designated federal regulator is responsible for supervising the financial institution(s) controlled
by the bank holding company and any nonbank subsidiaries of the financial institution(s).

The FDIC is responsible for regulating state nonmember banks that are part of a bank holding
company structure. A bank holding company structure allows the nonbank subsidiaries to
engage in a variety of activities unrelated to the traditional deposit taking and lending functions
of a bank. The FRB authorized various types of nonbank activities, including mortgage
origination, leasing, and electronic data processing, that are permissible activities for nonbank
subsidiaries of bank holding companies.

The passage of the GLBA significantly expanded the powers of bank subsidiaries and bank
holding companies to engage in activities that are “financial in nature,” including offering
insurance and securities products. This Act authorizes the organization of a “financial holding
company” under section 4 of the BHC Act. An existing bank holding company may become a
financial holding company by notifying the FRB of its election to do so.

The FRB collects organizational and financial data from bank holding companies and requires
that some information be provided on FRB reporting forms. Reports include:

       • FR Y-3, Application for Prior Approval to Become a Bank Holding Company, or for
         a Bank Holding Company to Acquire an Additional Bank or Bank Holding Company,
       • FR Y-6, Annual Report of Bank Holding Companies,



                                                  3
         • FR Y-8, The Bank Holding Company Report of Insured Depository Institutions’
           Section 23A Transactions with Affiliates, and
         • FR Y-9C, Consolidated Financial Statements for Bank Holding Companies.
Under the BHC Act, bank holding companies are required to register and file annual reports with
the FRB. The FR Y-6 Report is filed by all top-tier bank holding companies and consists of the
requirement to submit Securities and Exchange Commission (SEC) form 10-K if the bank
holding company is registered with the SEC or an annual report if one is created and sent to
shareholders. The FR Y-6 Report also requires the submission of an organizational chart and
includes information on the identity, percentage ownership, and business interests of principal
shareholders, directors, and executive officers.

The FR Y-8 Report is a quarterly report filed by all top-tier bank holding companies and collects
information on transactions between an insured depository institution and its affiliates that are
subject to Section 23A of the FR Act. A separate FR Y-8 Report should be filed for each insured
depository institution and submitted to the appropriate Federal Reserve Bank.5


Affiliate Transactions

The relationship of a bank with its affiliated organizations is important to an analysis of the
condition of the bank itself. Due to the commonality of ownership or management between
financial institutions and affiliated organizations, transactions with affiliates may not be subject
to the same sort of objective analysis that exists in transactions between independent parties.

Section 23A of the FR Act is the primary statute governing transactions between a financial
institution and its affiliates and is designed to prevent the misuse of a bank’s resources stemming
from transactions with its affiliates. Section 23A regulates loans or extensions of credit to
affiliated organizations and investments in affiliates by restricting the amount of loans,
extensions of credit, and investments,6 and requiring that the loans or extensions of credit meet
certain collateral standards.

The FR Act defines five types of covered transactions.

    (1) A loan or extension of credit to an affiliate;
    (2) A purchase of or an investment in securities issued by an affiliate;
    (3) A purchase of assets, including assets subject to an agreement to repurchase from the
        affiliate;
    (4) The acceptance of securities issued by an affiliate as collateral for any loan; and
    (5) The issuance of a guarantee, acceptance, or letter of credit on behalf of an affiliate.



5
  The 12 Federal Reserve Banks are located in Boston, MA; New York, NY; Philadelphia, PA; Cleveland, OH;
Richmond, VA; Atlanta, GA; Chicago, IL; St. Louis, MO; Minneapolis, MN; Kansas City, MO; Dallas, TX; and
San Francisco, CA.
6
  Section 23A limits the aggregate of all covered transactions between a bank and (1) a particular affiliate to 10
percent of the bank’s capital stock and surplus and (2) all of its affiliates to 20 percent of the bank’s capital stock
and surplus.
                                                            4
If a transaction between a bank and an affiliate cannot be determined to be within one of the five
categories mentioned above, it is not a covered transaction for the purposes of Section 23A of the
FR Act and is not subject to its limitations. For example, dividends or fees paid by a bank to its
parent holding company are not covered transactions under Section 23A.

The FR Act also contains two other provisions related to covered and exempted transactions.
First, a bank may not purchase any “low quality asset”7 from an affiliate in any amount unless,
pursuant to an independent credit evaluation, the bank had committed itself to purchase such
asset prior to the time such asset was acquired by the affiliate. The second provision requires
that any covered transaction between a bank and an affiliate must be on terms and conditions that
are consistent with safe and sound banking practices.

Section 23B of the FR Act applies to insured nonmember banks through section 18(j) of the
FDI Act. Section 23B essentially imposes the following four additional restrictions.

    (1) A requirement that the terms of affiliate transactions be comparable to terms of similar
        non-affiliate transactions;
    (2) A restriction on the extent that a bank may, as a fiduciary, purchase securities and other
        assets from an affiliate;
    (3) A restriction on the purchase of securities where an affiliate is the principal underwriter;
        and
    (4) A prohibition on agreements and advertising providing or suggesting that a bank is
        responsible for the obligations of its affiliates.

Violations of Section 23B by state nonmember banks are subject to the civil money penalties of
subsection (3)(A) of section 18(j) of the FDI Act.


Supervisory Examination Program

The FDIC shares supervisory and regulatory responsibility for FDIC-insured institutions8 with
other regulatory agencies, including the FRB, the Office of the Comptroller of the Currency, the
Officer of Thrift Supervision, and the state authorities. In addition to its role as insurer, the
FDIC is the primary regulator of federally insured state-chartered banks that are not members of
the Federal Reserve System.

As insurer, the FDIC is concerned with safety and soundness of all insured institutions. The
FDIC’s role is to protect depositors in the nation’s insured depository institutions, help maintain


7
  A “low quality asset” is defined as: (1) an asset which was classified as “substandard”, “doubtful”, or “loss”, or
treated as “other loans especially mentioned” in the most recent Report of Examination (ROE) or inspection of an
affiliate prepared by either a state or federal supervisory agency; (2) an asset in a nonaccrual status because of
deteriorating credit quality and/or past due status; (3) an asset on which principal or interest payments are more than
30 days past due; and (4) an asset whose terms have been renegotiated or compromised due to the deteriorating
financial condition of the obligor.
8
  The terms “FDIC-insured institution” and “insured depository institution” refer to all banks and savings
associations insured by the FDIC. The term “FDIC-supervised institution” refers to those banks for which the FDIC
is the primary federal regulator, i.e., FDIC-insured state-chartered commercial banks that are not members of the
Federal Reserve System, state-licensed insured branches of foreign banks, and state-chartered savings banks.
                                                          5
confidence in the banking industry, and promote safe and sound banking practices. Bank
supervision is a primary tool that the FDIC uses to fulfill this role, and DSC carries out this
supervisory role through its on-site examinations and off-site monitoring of banks between
examinations.

The most comprehensive examination is the on-site, full-scope safety and soundness
examination. The examination process can help prevent problem situations from remaining
uncorrected and deteriorating to the point where costly financial assistance by the FDIC, or even
paying insured depositors directly, becomes unavoidable. Bank examinations provide the
examiner with an understanding of the nature, relative seriousness, and ultimate cause of a
bank’s problems, as well as a factual foundation on which to soundly base corrective measures,
recommendations, and instructions.

After completing a full-scope examination, the DSC examiner uses a uniform rating system to
assign a numeric rating to reflect the assessment of the bank’s financial condition, compliance
with laws and regulations, and overall operating soundness. The FDIC’s rating of six elements --
Capital adequacy, Asset quality, Management performance, Earnings, Liquidity, and Sensitivity
to market risk -- is referred to as the CAMELS rating. The FDIC assigns an overall composite
rating that takes into account these six elements and other factors regarding the bank’s overall
financial condition and the safety and soundness of its operations. CAMELS component and
composite ratings range from 1 to 5, with a 5 rating representing the most critically deficient
level of performance.

The preparation of examination workpapers is an important part of documenting the examination
process and supporting examination conclusions. DSC’s Regional Directors Memorandum
entitled, Guidelines for Examination Workpapers and Discretionary Use of Examination
Documentation Modules, dated September 25, 2001, Transmittal Number 2001-039
(RDM 2001-39), provides guidance for examiners to document the results of examinations either
through the use of Examination Documentation (ED) Modules or a combination of brief
summaries, bank source documents, and ROE comments. The FDIC and the FRB developed the
ED Modules to provide examiners with a tool to focus on risk management and to establish an
appropriate examination scope. The ED Modules incorporate questions and points of
consideration into examination procedures to specifically address a bank’s risk management
strategies for each of its major business activities. At the time that the examinations in our
review were performed, there were 10 Primary modules,9 11 Supplemental modules, and 18
Specialty modules for examiners to use in their examinations. One of the Supplemental
modules, entitled Related Organizations, dated October 2000, includes procedures pertaining to
affiliates and affiliate transactions. Appendix IV of this report includes the Related
Organizations ED Module in its entirety.

DSC's Internal Control and Review Section (ICRS) is responsible for developing, implementing,
overseeing, and coordinating the division's internal risk management activities. One of ICRS's
activities is to provide reasonable assurance, through internal reviews of the regional offices, that


9
 The Primary ED Modules are: (1) Risk Scoping Activities; (2) Capital Adequacy Analysis; (3) Loan Portfolio
Management and Review, General; (4) Securities and Derivatives Examination Procedures; (5) Other Assets and
Liabilities; (6) Management and Internal Control Evaluation; (7) Earnings Analysis; (8) Liquidity Analysis; (9) Rate
Sensitivity; and (10) Anti-Money Laundering/Bank Secrecy Act.
                                                         6
the DSC examination and supervision program operates effectively and efficiently and in
accordance with corporate and divisional policies. ICRS established a Regional Office Review
Program to ensure substantive compliance with policies and procedures and quality of the
examination reports. ICRS reviews each regional office every 2 years. The regional review
program is structured in a checklist format. Among the many items that the ICRS reviewer
checks is whether the Pre-Examination Planning (PEP) memorandum clearly documents targeted
risk areas and low-risk areas where greater-or-less-than-normal examination resources will be
devoted. The ICRS reviewer also determines whether the field office reviews included a review
of examination workpapers for support of information contained in the ROE. The Dallas
Regional Office (DRO) has a workpaper review form, a checklist, to assist in its field office
reviews to determine the overall quality of field office examination workpapers. The reviewer is
reminded to check whether the PEP memorandum discusses areas of emphasis or procedures that
can be eliminated. The reviewer also is reminded to check whether the examination workpapers
contain summary statements that support conclusions for each CAMELS component and provide
an audit trail of examination findings.


Case Manager Program

The FDIC implemented its Case Manager Program in April 1997. The primary goal of the Case
Manager Program is to significantly enhance risk assessment and supervision activities by
assigning responsibility and accountability for a caseload of institutions or companies to one
individual, the case manager, regardless of charter and location, and by encouraging a more
proactive, but non-intrusive, coordinated supervisory approach. Another goal of the Case
Manager Program is to promote better communication and coordination among the FDIC, other
regulators, and the banking industry so that a consistent regulatory voice is presented, while
minimizing regulatory burden to the extent possible. The emphasis of the program is to ensure
that the level of regulatory oversight afforded to a financial institution is commensurate with the
level of risk it poses to the deposit insurance funds. Case managers, in conjunction with senior
DSC management, coordinate and direct DSC’s supervisory examination program using a
top-down approach to develop strategies and examination activities for all insured depository
institutions in their caseloads. The primary responsibilities of the case managers involve
assessing risk to the deposit insurance fund and directing the appropriate supervisory efforts to
eliminate or manage such risk. In this regard, case managers must maintain an informed position
on their caseloads, including monitoring affiliates and related transactions for the financial
institutions in their caseloads.


RESULTS OF EVALUATION

Overall, DSC’s efforts to identify affiliates of FDIC-supervised institutions and examine
transactions with such affiliates were generally adequate. DSC examiners identify and assess the
risks associated with affiliates and affiliate transactions on an individual institution basis during
the course of a safety and soundness examination of each financial institution rather than DSC
maintaining aggregate information on how many of nearly 4,900 FDIC-supervised financial
institutions have affiliate relationships. DSC examiners rely on information requested of and
provided by the financial institution and, in some cases, the FRB, to identify affiliates and
affiliate transactions, assess the risks associated with affiliates and affiliate transactions, and
                                                  7
establish an appropriate examination scope for affiliate activities. Further, DSC case managers
play a key role in helping examiners identify affiliates in FDIC-supervised financial institutions
through the case manager’s communications with bank management and reviews of FRB holding
company inspection reports. However, DSC examiners are not always requesting a list of
affiliate transactions that have occurred since the prior examination or FRB reports regarding
affiliate transactions and bank organizational structure. As a result, DSC is not obtaining
information that could provide greater assurance that examiners have identified all affiliate
activities before an examination is conducted and properly planned examination coverage to
address the associated risks. (See FINDING A: DSC’S IDENTIFICATION AND RISK
ASSESSMENT OF AFFILIATES AND AFFILIATE TRANSACTIONS.)

Concerning the adequacy of the examination procedures that examiners applied in reviewing
affiliate transactions, DSC examination workpapers for 17 of the 21 financial institution
examinations we reviewed contained sufficient information in the form of the ED Module
procedures or summary statements to identify the procedures used, and the examiners’
methodology in these instances appeared reasonable. However, for four examinations, we could
not conclude on the adequacy of the examination procedures applied to the financial institutions’
affiliate activities because the examination procedures were not documented in the examination
workpapers. DSC policies stipulate that examination documentation should provide written
support for the examination and verification procedures performed, conclusions reached, and
narrative comments in the ROE. As a result, in these four instances, we could not determine
what procedures the examiners used to review affiliate transactions, although affiliate activity
was reflected in the ROEs. (See FINDING B: DSC’S EXAMINATION PROCEDURES
FOR REVIEWING AFFILIATE TRANSACTIONS.)

While DSC’s approach for identifying affiliates and affiliate transactions is reasonable, we are
recommending that examiners request additional information from the financial institutions in
the form of affiliate transactions that have taken place since the prior safety and soundness
examination, and become aware of FRB reports on affiliate transactions and bank holding
company structure. Further, we are recommending that DSC ensure examiner compliance with
documentation guidelines for reviewing affiliate activity through its internal review process.




                                                8
FINDINGS AND RECOMMENDATIONS

FINDING A: DSC’S IDENTIFICATION AND RISK ASSESSMENT OF AFFILIATES
AND AFFILIATE TRANSACTIONS

While DSC’s approach to identifying affiliates and affiliate transactions is reasonable, examiners
could request and obtain additional information on affiliate activity during pre-examination
planning. DSC examiners collect affiliate information and assess the associated risks on an
institution-by-institution basis as part of the safety and soundness examinations of the individual
banks. In preparation for their examinations, examiners send information request lists, including
a request for data related to affiliates and affiliate transactions, if applicable, to bank
management. However, examiners are not always requesting a list of affiliate transactions that
have occurred since the prior examination or FRB reports regarding affiliate transactions and
bank holding company structure and ownership. Such information would serve as additional
resources for examiners to use in reviewing and determining that transactions between banks and
their affiliates comply with the provisions of applicable laws and ensuring the transactions are
not detrimental to the safety and soundness of the financial institutions. In the absence of this
information, examiners could be missing an opportunity to gain greater assurance that they have
identified all affiliate activities before an examination is conducted and properly planned
examination coverage to address the associated risks.

DSC issued a Regional Directors Memorandum entitled, Revised Pre-examination Planning
Memoranda, dated September 12, 2001, Transmittal Number 2001-037 (RDM 2001-037), that
revised the PEP process in response to the DSC Process Redesign recommendation to streamline
the process and make it more efficient. Some of the revised provisions include preparing PEP
memoranda comments on an “exception only” basis, according to areas of higher-than-normal or
lower-than-normal perceived risk; promoting uniformity in both the format and content of the
regions’ PEP memoranda; and briefly summarizing significant topics discussed with bank
management prior to the start of the examination. In addition, RDM 2001-039 includes
guidelines for retaining documentation support in the examination workpapers and mentions pre-
planning documents such as the bank entry letter data and examination task checklist items such
as the Officer’s Questionnaire.

According to the FDIC’s Case Managers Procedures Manual, a case manager’s primary
responsibility involves assessing risk to the deposit insurance fund and directing the appropriate
supervisory efforts to eliminate or manage such risk. The principal duties and responsibilities of
case managers include directing supervisory strategies, communicating and responding to bank
management, and reviewing and processing reports of examination. RDM 2001-037 includes a
responsibility for case managers to become actively involved in the pre-examination planning
process by discussing examination issues with the examiners and relaying relevant information
to the examiners regarding case managers’ interactions with financial institutions and other
regulators. RDM 2001-037 also states that the case manager can serve as a resource for the
examiner during and after the safety and soundness examination.




                                                 9
Identification of Affiliates

DSC does not have a database that tracks aggregate information on affiliates and respective
transactions for nearly 4,900 FDIC-supervised banks. We asked the EICs, operations managers
from the examination teams, and case managers if they thought there was a need for a database
that would track this information. Most of the individuals we interviewed told us that this type
of database would not be beneficial to DSC’s management or add value to the examination
process. Some of the reasons the interviewees cited for not needing a database to track affiliates
are:

     • Information related to affiliates is collected and readily available on an institution-by-
       institution basis in examination workpapers and files.
     • Aggregate information on affiliates and affiliate transactions is not necessarily meaningful
       because there is no need to determine trends or patterns within the financial regulatory
       industry regarding the number of affiliates and related transactions in financial
       institutions.
     • This type of database would require frequent updates.
     • There is no real common interest among banks in relation to affiliates. Each bank has its
       individual set of circumstances regarding affiliates and affiliate transactions.

FDIC statistics on banking show that, as of September 30, 2002, there were 4,864
FDIC-supervised financial institutions having total assets of nearly $1.3 trillion. Of the nearly
4,900 FDIC-supervised financial institutions, 15 percent (746 banks) had assets greater than
$250 million with aggregate assets of nearly $923 billion (74 percent of the nearly $1.3 trillion in
total assets). To determine the level of affiliates activity in the large banks, we selected 24 banks
with assets greater than $250 million, as of December 31, 2001, for our review and found that
DSC examiners identified affiliates in the ROEs for all but one bank that was a family-owned
financial institution. Most of the affiliate relationships are bank holding companies and several
are one-bank holding companies. Five of the 24 banks are Industrial Loan Corporations (ILC)10
with parent bank holding companies that are not regulated by the FRB. (Table 3 in Appendix I
provides additional detail on our audit sample.)

DSC examiners rely on information provided by the financial institutions or the FRB to identify
affiliates, for purposes of safety and soundness examinations. Examiners request affiliate
information from the financial institutions prior to the onsite examination and supplement this
information with data from the FRB. The EICs we interviewed told us they typically determine
the existence of affiliate relationships in the banks they examine through various means,
including:

     • Requesting the information from the bank through the safety and soundness request
         package11 submitted to bank management prior to the onsite examination.


10
   An ILC is a depository charter that can be owned by a non-bank, is eligible for FDIC insurance, and is excepted
from the definition of a “bank” set forth in the Bank Holding Company Act of 1956. However, ILCs are subject to
Sections 23A and 23B of the Federal Reserve Act regarding affiliate transactions.
11
   In the letter to bank management announcing the safety and soundness examination, EICs submit information
request lists to be assembled for offsite and onsite reviews. EICs refer to this letter as the “First Day Letter.”
                                                        10
     •   Holding a pre-planning meeting with bank management.
     •   Reviewing the Officer’s Questionnaire.12
     •   Reviewing the financial statements of the bank’s holding company.
     •   Reading previous ROEs.
     •   Reviewing other documents such as the bank’s annual report, SEC filings 10K and 10Q,
         internal and external audit reports, and FRB bank holding company inspection reports.

In our interviews with case managers, we discussed how the case manager perceives what his or
her role is in identifying affiliates and affiliate transactions, and the case manager’s role in
monitoring affiliates and affiliate transactions. Case managers told us they generally rely on the
examiners to identify affiliates and affiliate transactions during the pre-examination planning
phase of the safety and soundness examination and while conducting the actual onsite
examination. Through their communications with the financial institutions, processing of bank
applications, and reviews of FRB reports, case managers acquire information about the financial
institutions in their caseloads. In situations where the case manager has obtained information
about a bank’s affiliates and related activities, the case manager communicates this information
to the examiners. One of the case managers is currently involved in processing requests for
approval of affiliate transactions for one of the banks in the case manager’s caseload. In this
instance, the financial institution is required to obtain FDIC approval of dividend payments and
transactions with affiliates as a result of violations identified in prior years’ examinations.

Case managers mentioned numerous ways through which they monitor affiliate activities for the
financial institutions in their caseloads.

     • Case managers receive regular and specific correspondence from the FRB regarding bank
         holding companies.
     •   Case managers learn about organizational changes through the financial institutions’
         applications to the FDIC for mergers and acquisitions as well as other changes in control.
     •   Case managers review press releases, E-clips, and news articles. For problem banks
         under enforcement actions, case managers receive reports from the banks on a regular
         basis informing the FDIC of the status of corrective actions.
     •   Case managers make outreach calls to the bank, during which the case manager will
         discuss, among other issues, plans for new ownership or possible changes in bank
         management.
     •   Offsite monitoring.

Some case managers mentioned their ongoing communications and correspondence with the
financial institutions. One case manager told us that when a good relationship is developed
between the case manager and the financial institution, bank officials are more willing to contact
the case managers with inquiries and will voluntarily provide information. One of the case



12
  The Officer’s Questionnaire contains 15 questions pertaining to areas such as extensions of credit to bank
officials, assets owned by the bank but not shown on its accounting records, and pending lawsuits. The Officer’s
Questionnaire is an official document that must be signed and certified by a high ranking official of the bank, such
as the Chief Executive Officer.
                                                         11
managers we interviewed participated in the FDIC’s onsite examination of the largest bank in the
case manager’s portfolio.

Examiners use the information obtained from the financial institutions, the FRB, and case
managers in their pre-planning activities to determine, among other things, the level of risk
associated with the banks’ affiliated relationships in order to assess the amount of work to be
performed during the safety and soundness examination. RDM 2001-037 stipulates that targeted
risk areas are areas with more than normal risk, to which the examiner intends to devote
additional or “above normal” examination resources. These targeted risk areas may include
CAMELS components or specialty areas, such as related organizations. For areas of moderate
or “normal” risk, examiners perform standard examination procedures. RDM 2001-037 states
that if not specifically mentioned in the PEP memorandum, the examiners are not expected to
complete supplemental ED Modules, such as the Related Organizations ED Module, but adds
that the PEP memorandum should indicate when it is anticipated the ED Modules will be used
during the examination.

The EICs included a discussion of affiliates in the PEP memoranda for 21 of the 24 examinations
we reviewed. For example, in one of the PEP memoranda the EIC included a section dealing
with affiliate relationships and specific items to be reviewed during the examination, such as
servicing agreements between the banks and its affiliates as well as any high risk practices
imposed on the bank as a result of affiliate relationships or servicing agreements. For the three
examinations in which the examiners did not target affiliates work in the PEP memoranda, two
banks had a CAMELS rating of “1” and the third bank was a family-owned business with no
affiliates.


Affiliate Transactions

Examiners identify affiliate transactions through various means, including responses to the
Officer’s Questionnaires, safety and soundness examination request packages, and FRB reports.

Officer’s Questionnaire: One way that examiners determine the loan transactions made by a
financial institution to its affiliates is through the bank’s response to Question 15 of the Officer’s
Questionnaire. Question 15, states:

   List all organizations that are directly or indirectly affiliated with, or otherwise related to, the
   institution in any way, including fiduciary relationships. Related organizations may be
   corporations, partnerships, business trusts, or any similar organization. Provide the following
   information for each listing:

       • Name of Affiliate.
       • Location.
       • Type of business.
       • Current balance of all direct and indirect extensions of credit to the affiliate (per
         Section 23A of the FR Act).
       • Current balance of all loans to third parties, where the loans are collateralized with
         securities issued by the affiliate.
                                                  12
For all 24 examinations we reviewed, the financial institutions provided responses to
Question 15 in the Officer’s Questionnaire related to the extensions of credit to affiliates.

Safety and Soundness Examinations: We reviewed the safety and soundness request packages
(First Day Letter Requests) for the three DSC regions in our review to determine what
information the examiners request from the banks regarding affiliates and affiliate transactions.
The following illustrates the information requested in the area of affiliates in the first day letter
used by the DRO examiners.

     The First Day Letter requests (1) a list of affiliated companies as defined by Section 23A of
     the Federal Reserve Act and Section 2(b) of the Banking Act of 1933, including names and
     locations, period of existence, primary business activities, current financial information,
     nature of affiliation, circumstances under which affiliation arose, bank transactions with
     affiliates, and deposit accounts and balances maintained at the bank; (2) holding company
     information – financial statements (FR Y-9), Bank Holding Company Inspection Report,
     Uniform Bank Holding Company Performance Report, information on holding company
     debt, directors and officers, list of services provided by the holding company or other
     affiliates and fees paid, and tax allocation agreement; (3) copies of voting trust agreements
     for bank stock or bank holding company stock; (4) information regarding subsidiaries of the
     bank – list of bank subsidiaries, list of officers and directors, and financial statements; and
     (5) Officer’s Questionnaire.

We reviewed the first day letter requests for the 21 examinations targeted for affiliate work and
found that 14 did not include a request for a list of transactions with affiliates.

Federal Reserve Reports: The Related Organizations ED Module includes a procedure for the
examiner to review and analyze FRB Holding Company inspection13 reports. RDM 2001-039
also mentions the FRB reports on the holding company. Finally, DSC’s Dallas Regional Office
includes in its First Day Letter a request that the bank provide copies of the FR Y-9C Report,
Consolidated Financial Statements for Bank Holding Companies.

During the course of our review, we became aware of another FRB report, the FR Y-8 Report,
entitled The Bank Holding Company Report of Insured Depository Institutions’ Section 23A
Transactions with Affiliates, a quarterly report that collects information on transactions between
an insured depository institution and its affiliates that are subject to Section 23A of the FR Act.
For purposes of the FR Y-8 Report, an insured depository institution includes all of its
subsidiaries, except financial subsidiaries and insured depository institutions that are controlled
by a parent insured depository institution. The FRB requires that bank holding companies file a
separate FR Y-8 Report for each insured depository institution and submit the report to the
appropriate Federal Reserve Bank on a quarterly basis. The FR Y-8 Report requires that all bank
holding companies with insured depository institutions that have covered transactions report the
aggregate amount of such transactions that are subject to Section 23A requirements. Appendix
VII contains the FRB’s general instructions for preparing the FR Y-8 Report.

13
  The primary purpose of the bank holding company inspection is to determine whether the strength of the holding
company is being maintained on an ongoing basis and to assess the consequences of transactions between the parent
organization, the insured bank subsidiaries, and nonbank affiliates.
                                                       13
We discussed the FR Y-8 Report with several EICs and case managers. Most of the interviewees
were not familiar with this report. Further, we did not locate copies of the FR Y-8 Reports in the
examination workpapers and files that we reviewed for the 16 banks in our sample that were part
of bank holding companies regulated by the FRB.

We also identified another FRB report, FR Y-6 Report that might be helpful to examiners and
case managers in their examination and monitoring activities related to affiliates. The FR Y-6
Report, entitled Annual Report of Bank Holding Companies, is filed by all top-tier bank holding
companies and consists of the requirement to submit SEC form 10-K if the bank holding
company is registered with the SEC or an annual report if one is created and sent to shareholders.
The FR Y-6 Report also requires the submission of an organizational chart and includes
information on the identity, percentage ownership, and business interests of principal
shareholders, directors, and executive officers.

The EICs told us that they use resources such as annual reports, SEC filings, and FRB bank
holding company inspection reports to help identify affiliates. Sources of information for
examiners regarding affiliate transactions consist of the Officer’s Questionnaire, further
corroborated through a review of the bank’s financial reports and general ledgers, as well as prior
ROEs. The FR Y-6 Report could serve as an additional resource for the examiner in identifying
affiliated organizations. Further, the FR Y-8 Report could serve as an additional resource for the
examiner in identifying affiliate transactions.


Conclusion

DSC’s approach to identifying affiliates and related transactions is reasonable. However,
examiners could benefit by requesting additional information from the financial institutions,
especially in the area of affiliate transactions that have taken place since the prior safety and
soundness examination. Examiners could also obtain additional information on affiliate
transactions and bank holding company structures from FRB reports.


Recommendations

We recommend the Director, DSC:

   (1) Include a request for a list of affiliate transactions in the Safety and Soundness
       Examination Request Package when DSC knows or has reason to believe that a financial
       institution has affiliate activities. In situations where affiliate transaction activity is
       voluminous, request that for each affiliate, the bank provide the types or categories of
       affiliate transactions that have occurred since the previous examination and a list of
       transactions with values greater than a predetermined dollar threshold.

   (2) Inform safety and soundness examiners and case managers as to the availability of
       FR Y-6 and FR Y-8 Reports as additional resources for identifying affiliates and affiliate
       transactions.


                                                 14
FINDING B: DSC’S EXAMINATION PROCEDURES FOR REVIEWING AFFILIATE
TRANSACTIONS

In some instances, DSC examiners could have better documented the examination procedures
applied to affiliates and affiliate transactions. In 17 of the 21 financial institution examinations
we reviewed where affiliates were targeted during pre-examination planning, the DSC
examination workpapers contained sufficient information in the form of the Related
Organizations ED Module or summary statements to identify the procedures used in reviewing
affiliates activities, and the examiners' methodology in these instances appeared reasonable.
However, we could not conclude on the adequacy of procedures applied to affiliates for the four
remaining examinations because there was no record in the workpapers of what the examiners
had done in this area to review affiliate transactions. As a result, the adequacy of examination
procedures of affiliate work in four examinations cannot be determined, and subsequent users of
the examination workpapers cannot readily understand the extent of work performed under prior
examinations to identify or assess risks associated with affiliate transactions.


Risk-Focused Examination Process

DSC uses a risk-focused examination process to target bank examinations on bank functions that
pose the greatest risk exposure. The risk-focused examination process attempts to assess an
institution's risk by evaluating its processes to identify, measure, monitor and control risk. The
risk-focused examination program includes a set of primary and supplemental ED Modules that
address the major functional areas of a financial institution. Each module contains a series of
examination procedures for examiners to consider when evaluating the financial institution.
These procedures are separated into three distinct tiers: Core Analysis, Expanded Analysis, and
Impact Analysis. The Core Analysis includes procedures to be considered, but not necessarily
performed, at every examination. When significant weaknesses are noted during the Core
Analysis, examiners are required to complete the Expanded Analysis procedures for only those
areas that present the greatest risk to the institution. If the risks are material, or the activity is not
adequately managed, then the examiner is expected to perform the Impact Analysis.14

The EIC is responsible for developing an examination program that is commensurate with the
level of risk in each functional area, such as an institution's affiliates and affiliate transactions.
The effective use of the risk-scoping process gives examiners the flexibility to omit unnecessary
procedures in areas that are well controlled or pose minimal risk to the institution. If the
pre-examination assessment indicates that a functional area has minimal risk and a stable history,
further analysis in unnecessary. The EIC prepares a PEP memorandum documenting this
assessment and identifying Targeted Risk Areas.15 The examiner performs standard examination
procedures16 for the functional areas that present average or moderate risk. The examiner is not
expected to complete any supplemental ED module, or similar procedures, unless specifically
mentioned in the PEP memorandum. The Related Organization ED Module (examination

14
   Impact Analysis reviews the impact that deficiencies identified in the Core and Expanded Analysis Decision
Factors have on the bank’s overall condition. Impact Analysis also directs the examiner to consider possible
supervisory options.
15
   Areas with more than normal risk, to which the examiner intends to devote additional examination resources.
16
   Standard examination procedures refer to performing the Core ED Analysis or completing similar procedures,
which form the basis for conclusions and findings.
                                                       15
procedures for affiliates and affiliate transactions) is a supplemental ED module. The examiner's
judgement in deciding which examination procedures should be performed and which
procedures can be excluded is critical to the success of the FDIC's risk-focused examination
program. The examination procedures performed for reviewing affiliates and affiliate
transactions should be tailored based on the characteristics of each bank. As a result, the extent
to which examination procedures are completed as they relate to affiliates will vary from bank to
bank, or even examination to examination.


Examination Documentation of Affiliate Procedures

The DSC recognized that the preparation of examination workpapers is an important part of
documenting the examination process and supporting examination conclusions. RDM 2001-039
emphasized the importance of examination workpapers and provided the examiners with greater
flexibility in choosing how to best document the examination process findings either through the
use of ED Modules or new workpaper guidelines originating from the DSC Process Redesign
Project. Although RDM 2001-039 established the discretionary use of ED modules, this
guidance encouraged the EIC to use ED modules when appropriate, especially when reviewing
specialty areas, and stipulated that the examination documentation should “demonstrate a clear
trail of decisions and supporting logic within a given area” and provide written support for the
examination and verification procedures performed, conclusions reached, and the narrative
comments in the ROE. This examination documentation should include a "Summary Statement"
which at a minimum briefly details the procedures used, documents relied upon, and the analysis
conducted to support the examiner's conclusions relative to the assigned CAMELS components.
Summary Statements can take many forms, including notations on copies of the source
documents, separate hand-written comments, use of an ED module, and/or a document prepared
electronically with a hard copy maintained in the appropriate workpaper file. The EIC is
responsible for determining the extent of documentation used in the examination process. The
DSC Manual of Examination Policies, Section 1.1, was updated in February 2002 to incorporate
the provisions of RDM 2001-039. In addition, ICRS conducts regional office reviews, including
a check of field office reviews, to ensure that the examination and supervision program is
operating in accordance with corporate and divisional policies.

Given these workpaper guidelines, we reviewed the examination workpapers that DSC provided
us, namely all workpapers for 10 of the 24 examinations and workpapers pertaining to related
organizations and affiliates, especially the Related Organizations ED Module, for 14 of the 24
examinations. Seventeen of the 39 different ED modules contained 65 affiliate-related
examination procedures to be considered by the examiner as part of core analysis. At the time of
our review, the Related Organizations ED Module had 28 core analysis procedures and 8 core
analysis decision factors (refer to Table 1 below) that represented the examiner's summary
conclusions of the core analysis procedures performed. In the absence of ED Module
documentation, we looked for the alternative documentation to evaluate the actual procedures
used to identify affiliates and examine affiliate transactions. In doing so, we accepted the
judgment and other factors used by the examiners in their determination of what procedures they
applied to reviewing affiliate activities.




                                               16
Table 1: Related Organizations ED Module -Core Analysis Decision Factors

   Do Core Analysis and Decision Factors indicate that risks are adequately managed?
   Core Answer: General Comment:(If any)
   Core Analysis Decision Factors

   C.1. Are bank policies and procedures adequate for the level of transactions among the
   holding company, affiliates, and subsidiaries?

   C.2. Are internal controls adequate?

   C.3. Are the audit or independent review functions adequate?

   C.4. Are information and communication systems adequate and accurate?

   C.5. Are bank affiliates able to operate without threatening the financial condition of the
   bank and are separated appropriately?

   C.6. Do transactions comply with the appropriate Federal and state laws and regulations?

   C.7. Are all affiliated organizations appropriately capitalized?

   C.8. Do the board and senior management effectively supervise this area?
 Source: Related Organizations ED Module

We reviewed 24 examination workpapers covering 10 field offices in three regions (6 in New
York, 2 in Dallas, and 4 in San Francisco). In reviewing examination workpapers, we looked for
an explanation of the procedures that were used in the form of annotations or checkmarks to the
ED Module steps, support for the responses to the core analysis decision factors, or a summary
statement that described the steps taken in reviewing affiliate transactions. We found that for 17
of the 21 examinations targeted for affiliates work, the examiners identified the procedures they
used in regard to reviewing affiliate activity either in the Related Organizations ED Module or a
summary statement related to a review of affiliate transactions. For example, in one of the
examinations, the workpapers included responses to the Related Organizations ED Module core
analysis decision factors, comments for each of the eight decision factors, and notations to the
procedures within the ED Module that the examiners used in their review of activities with
affiliates.

However, we could not conclude on the adequacy of examination procedures in the area of
affiliate activities for the remaining four examinations because the examination workpapers we
reviewed did not specify what procedures the examiners actually performed. In two of the four
examinations, the workpapers included answers to the core analysis decision factors but there
were no notations to indicate what the examiners did or what documents were relied upon in
order to respond to the questions. In one of these two instances, the workpapers included seven
summary statements relating to affiliate conclusions reached and assertions of fact and opinion in
the ROE, but none of the summary statements provided a summation of the documentation relied
upon during the review or briefly detailed the procedures used and analyses conducted to support
the conclusions and assertions. In the third instance, the workpapers included two summary
statements relating to affiliates, but the summary statements omitted a summation of the
documentation relied upon during the review or a brief description of the procedures used and
                                                 17
analyses conducted to support the conclusions and assertions. In the fourth instance, the affiliate
workpapers did not include a summary statement, Related Organizations ED Module core
analysis decision factors, or the ED Module procedures with annotations or checkmarks
indicating which procedures were performed and the documents relied upon to reach the
examiner's conclusions.

Although we were unable to identify the affiliate-related procedures that the examiners used in
these four examinations, we could not determine with certainty that the examiners did not
perform the work. Through a review of the workpapers, we were able to determine that
examiners collected information in the area of affiliates, as evidenced by source documents
contained in the workpapers, such as the Officer’s Questionnaire, bank organization charts, SEC
filings, and FRB Bank Holding Company Inspection Reports. However, we could not always
determine whether the examiners reviewed or analyzed the information contained in these
documents.

Table 2 summarizes the results of our review of 24 examination workpapers and shows the
documents that the examiners prepared to identify the examination procedures performed and
conclusions reached. Table 2 also shows the number of instances where DSC did not document
the procedures performed.

Table 2: Documentation Included in Examination Workpapers of OIG Sample Banks

                                            Review of Bank Examination Workpapers
               Pre-exam                     Summary     Summary
 CAMELS        Planning        ED Module    Memo        Memo and Exam                Affiliates
 Ratings per   Memo –          and Core     Only –      ED Module Procedures         Review Not
 ROE           Mentions        Analysis     Affiliates  and/or Core Not              in Scope of
 Reviewed      Affiliates      Factors      Review      Analysis     Documented      Examination

  4 – Rated       3 out of 3       0             2            0             1             0


  3 – Rated       4 out of 5       0             0            2             2             1


  2 – Rated     10 out of 10       4             1            4             1             0



  1 – Rated       4 out of 6       2             0            2             0             2


    Total       21 out of 24       6             3            8             4             3

Source: OIG Analysis

During our January 28, 2003 exit conference, DSC management requested that we allow regional
and field officials the opportunity to respond to our four identified exceptions. These officials
provided detailed written explanations of procedures performed related to affiliates or reasons

                                                18
why procedures were not necessary. However, the regional and field office responses did not
provide additional evidence of workpaper documentation of the examination procedures
performed.

Conclusion

Current DSC policy recognizes the importance of workpaper documentation. RDM 2001-039
states that examination findings should be documented through a combination of brief
summaries, bank source documents, report comments, and other examination workpapers that
address both management practices and condition. Examination documentation should
demonstrate a clear trail of decisions and supporting logic within a given area. Documentation
should provide written support for examination and verification procedures performed and
conclusions reached. It should also support the assertions of fact or opinion in the financial
schedules and narrative comments in the ROE. The DSC Manual of Examination Policies,
Section 1.1, states that all procedures performed during the examination should be sufficiently
documented in the workpapers. It is our position that the term “examination findings” would
pertain to any conclusion reached, not just negative findings on an exception basis. As such, we
would expect that the examiner be required to document the examination procedures performed
when reviewing affiliates and affiliate transactions at all times, not just when there is an
“exception” reporting of findings. The nature of exception-based reporting only heightens the
need for examiners to document examination procedures performed to support conclusions on
the risks posed by affiliates and affiliate transactions.

DSC management officials indicated that the four exceptions we noted in the area of
documenting procedures posed “…little risk that material affiliate risk is not captured in our
[DSC] current [examination] practices.” We could not determine and are not expressing an
opinion on the increased risk, if any, posed to the adequacy of DSC’s overall examination
process by the four documentation exceptions we noted. However, the documentation
exceptions we identified were for examinations of large banks having assets greater than
$250 million with CAMELS ratings of 2, 3, or 4, and several of these banks were cited for prior
affiliate-related violations. Moreover, several bank failures over the past few years have
identified affiliate relationships and transactions as factors contributing to their failure. Finally,
we observed disparities among regional offices in the manner and level to which examiners
document the procedures performed in the area of affiliate activities and affiliate transactions.
Accordingly, we are recommending that DSC ensure compliance with documentation
requirements associated with reviewing affiliate activity through DSC’s ongoing monitoring of
its examination practices. The outcome of such monitoring will be greater assurance that
affiliate risk is being adequately identified and evaluated.

Recommendation

We recommend that the Director, DSC:

   (3) Ensure, through ICRS' Regional Office Review Program and the Field Office Review
       Program, that examiners are following DSC's policies for documenting affiliate work and
       the examination procedures used, the documents relied upon, and the analyses conducted
       in the examination of transactions with affiliates.


                                                  19
CORPORATION COMMENTS AND OIG EVALUATION

The Director, DSC, provided a written response, dated March 21, 2003, to a draft of this report.
DSC’s response is presented in its entirety in Appendix IX to this report. We also made changes
throughout the report to reflect discussions with and additional correspondence from DSC.

The Corporation partially agreed with recommendation 1. DSC agreed with the intent of the
recommendation to include a request for a list of affiliate transactions in the Examination
Request Package, but added that this list would not be considered necessary for every exam, and
examiners should be provided the flexibility to include items they deem appropriate for the
organization being examined. Instead, DSC plans to issue guidance to examiners by
June 30, 2003, re-emphasizing that when examiners have reason to believe that a financial
institution has affiliate transactions, they should consider whether to include a request for a list of
transactions in the Examination Request Package or request appropriate alternatives.

We consider DSC’s proposed action sufficient to resolve this recommendation. However, we
would note that our recommendation provided the FDIC flexibility to tailor the affiliates
transactions request list based on individual examination needs. Obtaining a list of affiliate
transactions, or when the affiliate activity is voluminous, the types or categories of affiliate
transactions that have occurred since the previous examination, would serve as an additional
resource for examiners in determining that transactions between banks and their affiliates comply
with the provisions of applicable laws, and ensuring that the transactions are not detrimental to
the safety and soundness of the financial institutions. In the absence of this information,
examiners could be missing an opportunity to gain greater assurance that they have identified all
affiliate activities before an examination is conducted and properly planned examination
coverage to address the associated risks.

DSC fully concurred with recommendations 2 and 3. With respect to recommendation 2, DSC
will request that the Interagency ED Module Maintenance Committee revise the Related
Organizations Module to include a reference to the availability of the FR Y-6 and FR Y-8
Reports. We suggest that DSC inform examiners and case managers of the existence of these
reports while pursuing changes to the ED Module.

With respect to recommendation 3, DSC agreed to add guidance to its Regional Office Review
Program to ensure adequate review of examination procedures of affiliate activities. DSC also
indicated in its response that it further reviewed the four cases where we could not conclude on
the adequacy of examination procedures and concluded that substantial review and analysis of
affiliate activities took place in all four examinations.

DSC’s proposed actions are sufficient to resolve each recommendation. However, these
recommendations will remain undispositioned and open for reporting purposes until we have
determined that agreed-to corrective actions have been completed and are effective.

Appendix X presents a summary chart showing DSC’s responses to our three recommendations.




                                                  20
                                                                                       APPENDIX I
                       OBJECTIVE, SCOPE, AND METHODOLOGY
The overall objective of our evaluation was to review DSC’s efforts to identify affiliates of
FDIC-supervised institutions and examine transactions with such affiliates. In accomplishing
our objective, we reviewed the following areas:

(1) The manner in which DSC examiners identify and assess the risks associated with affiliates
    and affiliate transactions in determining the examination procedures applied to this activity
    during safety and soundness examinations.

(2) The adequacy of examination procedures actually applied to affiliate activities.

In reviewing these two areas, we addressed the role of the DSC case manager in identifying and
monitoring FDIC-supervised institution affiliates and affiliate transactions.

To accomplish our objective, we performed the following work:

•   Identified and reviewed the following laws, regulations, policies, and procedures related to
    the FDIC’s responsibilities in the area of financial institutions’ affiliates and affiliate
    transactions.

       (1)    Banking Act of 1933, Section 2(b).
       (2)    Federal Reserve Act, Sections 23A and 23B.
       (3)    Bank Holding Company Act of 1956.
       (4)    Federal Deposit Insurance Act, Section 18(j).
       (5)    Division of Supervision and Consumer Protection (DSC) Manual of Examination
              Policies: Related Organizations, Section 4.3 as of August 1999, and the
              February 2002 revision that includes the provisions of the Gramm-Leach-Bliley Act
              (GLBA) which amended many laws governing the affiliation of banks and other
              financial service providers.
       (6)    DSC Manual of Examination Policies, Basic Examination Concepts and Guidelines,
              Section 1.1, Coordination of Bank Holding Company Inspections and Subsidiary
              Institution Examinations.
       (7)    DSC Regional Directors Memorandum 2001-002, Implementation of Functional
              Regulation Pursuant to the Gramm-Leach-Bliley Act, dated January 10, 2001,
              Transmittal Number 2001-002.
       (8)    DSC Regional Directors Memorandum 2001-037, Revised Pre-Examination
              Planning Memoranda, dated September 12, 2001, Transmittal Number 2001-037.
       (9)    DSC Regional Directors Memorandum 2001-039, Guidelines for Examination
              Workpapers and Discretionary Use of Examination Documentation Modules, dated
              September 25, 2001, Transmittal Number 2001-039.
       (10)   DSC Regional Directors Memorandum, Revised Report of Examination, dated
              October 11, 2001, Transmittal 2001-045.
       (11)   Related Organizations Examination Documentation (ED) Module, dated
              October 2000.
       (12)   ED Module, Risk Scoping Activities, dated August 2001.



                                                21
                                                                                   APPENDIX I

        (13) Procedures related to affiliates that were included in the following ED
             Modules-Loan Portfolio Management and Review Control; Securities and
             Derivatives; Other Assets and Liabilities; Earnings; International Banking;
             Nondeposit Investment Products; Securitization; Trust; Retail Insurance and
             Securities Sales Activities; Commercial and Industrial Loans; Credit Card
             Activities; Subprime Lending; Pooled Investment Vehicles Reference; Employee
             Benefits Reference; Conflicts of Interest; and Reviews of External Auditor
             Workpapers.
        (14) FDIC Circular 7000.1, DSC/DRR Information Sharing for Failing Institutions, dated
             December 3, 1999.
        (15) FDIC Case Managers Procedures Manual.

•   Reviewed Reports of Examination (ROE) for 32 FDIC-supervised financial institutions rated
    CAMELS 3, 4, and 5 as of December 31, 2001, and having assets over $250 million.
•   Reviewed ROEs for FDIC-supervised financial institutions rated CAMELS 1 and 2 and
    having assets greater than $250 million.
•   Selected 24 examinations for review of examination procedures applied to affiliates and
    related transactions in order to determine the adequacy of procedures used. (Refer to
    Table 3.)

    Table 3: Universe of FDIC-Supervised Banks Having Assets Greater Than $250
    Million and Sample of Banks Selected for OIG Review
                           Banks > $250 Million at      Sample of Banks Selected for
                                 12/31/01                         Review
      CAMELS
      Rating of      Number of                          Number of
       Banks          Banks           Total Assets       Banks          Total Assets
        New             2                 $17,995,351      0                           $0
      3, 4, & 5         32                $24,431,850      9                  $10,363,094
        1&2            868             $1,110,330,228      15                $116,845,945
           Total       902             $1,152,757,429      24                $127,209,039
    Percentage                                                2.66%               11.04%
    Source: OIG Analysis

•   Using a questionnaire, interviewed Examiners-in-Charge (EIC) or operations manager (OM)
    responsible for the 24 examinations we reviewed.
•   Using a questionnaire, interviewed the case managers (CM) responsible for overseeing the 24
    financial institutions in our sample.
•   Reviewed examination workpapers, including correspondence files, for the 24 financial
    institution examinations we selected for review.
•   Reviewed the Federal Reserve System Bank Holding Company Supervision Manual
    provisions that relate to testing of transactions among and between bank holding companies
    and their bank and nonbank affiliates to determine the extent of transaction testing performed
    by the Federal Reserve in its inspections of bank holding companies.




                                                 22
                                                                                      APPENDIX I

•   Reviewed the Federal Reserve instructions and guidance for preparing and submitting the
    FR Y-6 Report, Annual Report of Bank Holding Companies, and FR Y-8 Report, The Bank
    Holding Company Report of Insured Depository Institutions’ Section 23A Transactions with
    Affiliates.
•   Obtained and analyzed results of financial databases queries made by the OIG’s Office of
    Investigations to identify the organizational structures for five New York Regional Office-
    supervised banks and one Dallas Regional Office-supervised bank with CAMELS ratings of
    3, 4, and 5 and having assets greater than $250 million.
•   Interviewed Federal Reserve officials regarding the availability of FR Y-8 Reports to the
    FDIC.
•   Performed Internet research related to Industrial Loan Companies (ILC) and the applicability
    of Section 23A and 23B to ILC.
•   Reviewed DSC’s training curriculum and On The Job Training (OJT) course outlines for
    noncommissioned examiners to determine the extent of training in affiliates and affiliate
    transactions.
•   Reviewed the Federal Reserve Board’s notices related to Regulation W. In November 2002,
    the Federal Reserve Board published a final Regulation W, which combines the Federal
    Reserve’s statements on Sections 23A and 23B of the FR Act with new elements required by
    the Gramm-Leach-Bliley Act in a single, comprehensive rule governing transactions between
    banks and their affiliates. Final Regulation W will have an effective date of April 1, 2003.

We gained an understanding of DSC’s system of internal control by reviewing the policies and
procedures for identifying and reviewing financial institutions affiliates and related transactions
and the examiners' implementation of those policies and procedures as they apply to affiliates.
We did not test internal controls over these processes. Further, we did not (1) test for fraud or
illegal acts, (2) test for compliance with laws and regulations, or (3) determine the reliability of
computer-processed data obtained from the FDIC’s computerized system. We limited our
review of Government Performance and Results Act reporting to reviewing the FDIC 2001 to
2006 Strategic Plan to identify any goals related to affiliates.

We performed fieldwork in DSC headquarters; Dallas, New York, and San Francisco Regional
Office; and Baltimore, Dallas, Orange, Portland, Salt Lake City and San Francisco Field
Offices. We conducted our evaluation from June 2002 through January 2003, in accordance
with generally accepted government auditing standards. We discussed the results of our
evaluation with DSC management at an exit conference held on January 28, 2003.




                                                 23
                                                                                  APPENDIX II

               ACRONYMS AND ABBREVIATIONS USED IN REPORT
                      Capital Adequacy, Asset Quality, Management, Earnings, Liquidity, and
CAMELS
                      Sensitivity to Market Risk
CM                    Case Manager
DOS                   Division of Supervision
DRO                   Dallas Regional Office
DSC                   Division of Supervision and Consumer Protection
ED                    Examination Documentation
EIC                   Examiner-in-Charge
FDI Act               Federal Deposit Insurance Act
FRB                   Board of Governors of the Federal Reserve System
GLBA                  Gramm-Leach-Bliley Act
ILC                   Industrial Loan Corporation
NYRO                  New York Regional Office
OIG                   Office of Inspector General
OJT                   On The Job Training
OM                    Operations Manager
PEP                   Pre-Examination Planning
RDM                   Regional Director Memorandum
RDM 2001-037          Revised Pre-Examination Planning Memoranda, September 12, 2001
                      Guidelines for Examination Workpapers and Discretionary Use of Examination
RDM 2001-039
                      Documentation Modules, September 25, 2001.
ROE                   Report of Examination
SFRO                  San Francisco Regional Office




                                              24
                                                                                   APPENDIX III
     EXCERPTS FROM THE DIVISION OF SUPERVISION AND CONSUMER
  PROTECTION MANUAL OF EXAMINATION POLICIES, SECTION 4.3, RELATED
                         ORGANIZATIONS

Excerpts from Section V. AFFILIATES

Four major types of affiliates are defined in Section 23A and these are discussed in the following
paragraphs.

The first category pertains to a parent holding company and its subsidiaries. Any company that
controls the bank (holding company) as well as any other company that is controlled by the
company controlling the bank (sister subsidiary) is considered to be an affiliate of the bank under
Section 23A. "Control" is defined as owning, controlling, or having the power to vote (directly
or indirectly) 25 percent or more of any class of voting securities; or controlling in any manner
the election of a majority of the directors or trustees. The term "company" means a corporation,
partnership, business trust, association, or similar organization. These definitions are very
similar, although not identical, to the definitions of "control" and "company" used in the Bank
Holding Company Act. It is therefore possible to have a holding company-subsidiary
relationship under the Bank Holding Company Act which is not an affiliate relationship for the
purposes of Section 23A. Control relationships existing in certain types of trusts are an example.


Section 23A grants an important exemption with respect to domestic banks which are affiliated
under this definition. When a bank is 80 percent controlled by a holding company, its
transactions with other banks which are also 80 percent controlled by the same holding company
are largely unrestricted. The only restrictions which do apply are the general prohibitions against
a bank purchasing low-quality assets from its affiliates (refer to "Restrictions on Covered
Transactions With Affiliates" below for a definition of "low quality asset"), and a requirement
that all transactions be consistent with safe and sound banking practices. All restrictions and
limitations set forth in Section 23A are, however, applicable to transactions by a bank with its
parent holding company, its non- bank subsidiaries, and its bank subsidiaries which do not meet
the 80 percent exemption. They also apply to an affiliated foreign bank even where the 80
percent test is met. The rationale for the 80 percent ownership test is that it is the minimum
ownership generally required for the preparation of consolidated Federal income tax returns.

The second category consists of bank subsidiaries of a bank. A domestic bank, which is
controlled by another bank, is an affiliate of the controlling institution for the purposes of
Section 23A. Where such bank is, however, 80 percent controlled, it is granted the same
exemption described above relative to sister bank affiliates in a holding company organization.
Thus, the treatment of domestic bank affiliates is consistent whether the bank is affiliated
through a holding company or by virtue of direct ownership or control.

A different situation exists with respect to non- bank and foreign bank subsidiaries. Directly
owned subsidiaries of this type, whether majority or minority owned, are excluded from the
definition of an affiliate for the purposes of Section 23A. This is in contrast to the treatment of
such firms when they are holding company subsidiaries. (As noted above, non-bank and foreign

                                                25
                                                                                    APPENDIX III
bank subsidiaries of a holding company are affiliates and are subject to the restrictions of
Section 23A). The rationale for this contrast in treatment is that non-bank subsidiaries, when
majority owned by a bank, are really an integral part of the bank and transactions between the
two should not normally be restricted. With respect to minority owned nonbank subsidiaries, it is
noted that most banks are restricted in their ability to own stock and several of the more common
types of non-bank subsidiaries (such as bank premises and safe deposit companies) are
specifically exempted anyway. While this rationale serves to mitigate concern for transactions
with non-bank subsidiaries in many instances, situations may arise where a bank can be exposed
to undo risk. For instance, in some states banks may be able to conduct types of businesses
through a non-bank subsidiary which would be prohibited to the bank itself. While the bank's
investment in such a company may be limited, there may be no restriction on the amount of loans
which could be made to the affiliate to fund its operations. Where evidence exists that a
particular non-bank subsidiary should be brought under the restrictions of Section 23A, this can
be accomplished by specific order or regulation. Any such recommendation should be
forwarded to the Regional Office accompanied by supporting information.

The third category of affiliates may be referred to as companies interlocked with a banking
organization. Any company which is interlocked with a bank or its holding company by virtue
of common ownership or common directors is an affiliate of the bank for the purposes of
Section 23A. Such interlocks will arise any time that (1) 25 percent or more of a company is
owned, directly or indirectly, by or for the benefit of shareholders who have a direct or indirect
ownership of 25 percent or more in either the bank or its parent holding company; or (2) a
majority of a company's board of directors also comprise a majority of the board of the bank or
its parent holding company. This definition may frequently be applicable to chains of one-bank
holding companies which are interlocked by ownership or board membership at the holding
company level. Under this definition both the chain of holding companies and their subsidiary
banks will be affiliates of a bank under examination if either of the above relevant criteria are
met.

The final category is comprised of sponsored and advised affiliates. For the purposes of
Section 23A, a company which is sponsored and advised on a contractual basis by a bank, or by
any of the bank's subsidiaries or affiliates, is an affiliate of the bank. Real estate investment
trusts are an example of this type of affiliation.

Any investment company which a bank or any of its subsidiaries or affiliates serves as an
investment advisor is an affiliate of the bank. An investment advisor is basically one who,
pursuant to a contract, regularly furnishes advice with respect to the desirability of investing in,
purchasing or selling securities, or is empowered to determine what securities shall be purchased
or sold by the investment company. The rationale for the inclusion of these two types of
affiliations is that banks may, in order to protect their reputation or to forestall lawsuits alleging
that bad advice was given, engage in less than arms length transactions. By according the
provisions of Section 23A to such situations, a bank's potential exposure to loss can be
controlled.




                                                  26
                                               APPENDIX IV
RELATED ORGANIZATIONS EXAMINATION DOCUMENTATION MODULE




                          27
     APPENDIX IV




28
     APPENDIX IV




29
     APPENDIX IV




30
     APPENDIX IV




31
     APPENDIX IV




32
     APPENDIX IV




33
     APPENDIX IV




34
     APPENDIX IV




35
     APPENDIX IV




36
                                                    APPENDIX V
 REGIONAL DIRECTORS MEMORANDUM, GUIDELINES FOR EXAMINATION
WORKPAPERS AND DISCRETIONARY USE OF EXAMINATION DOCUMENTATION
                          MODULES




                             37
     APPENDIX V




38
     APPENDIX V




39
     APPENDIX V




40
     APPENDIX V




41
                                               APPENDIX VI
REGIONAL DIRECTORS MEMORANDUM, REVISED PRE-EXAMINATION
                 PLANNING MEMORANDA




                          42
     APPENDIX VI




43
     APPENDIX VI




44
     APPENDIX VI




45
     APPENDIX VI




46
     APPENDIX VI




47
     APPENDIX VI




48
                                                 APPENDIX VII
GENERAL INSTRUCTIONS FOR PREPARING FR Y-8 REPORT, THE BANK
HOLDING COMPANY REPORT OF INSURED DEPOSITORY INSTITUTIONS’
         SECTION 23A TRANSACTIONS WITH AFFILIATES




                            49
     APPENDIX VII




50
     APPENDIX VII




51
                                                   APPENDIX VIII
INSTRUCTIONS FOR PREPARING FR Y-6 REPORT, ANNUAL REPORT OF BANK
                      HOLDING COMPANIES




                              52
     APPENDIX VIII




53
     APPENDIX VIII




54
     APPENDIX VIII




55
     APPENDIX VIII




56
     APPENDIX VIII




57
                       APPENDIX IX
CORPORATION COMMENTS




         58
     APPENDIX IX




59
     APPENDIX IX




60
     APPENDIX IX




61
                                                                                                                                                    APPENDIX X

                                                  MANAGEMENT RESPONSES TO RECOMMENDATIONS

This table presents the management responses that have been made on recommendations in our report and the status of recommendations as
of the date of report issuance. The information in this table is based on management’s written response to our report (and subsequent
communication with management representatives.)

                                                                                                                                                       Open
 Rec.                                                                      Expected           Monetary       Resolved17:      Dispositioned18:           or
Number           Corrective Action: Taken or Planned/Status             Completion Date       Benefits       Yes or No           Yes or No            Closed19
  1            DSC will re-emphasize to examiners that when
               they have reason to believe that a financial
               institution has affiliate transactions, they should
               consider whether to include a request for a list of          June 30, 2003         No              Yes                No                 Open
               transactions in the Examination Request Package
               or to request appropriate alternatives, such as, lists
               of specific transactions and copies of contracts
               and agreements with affiliates.
      2        DSC will request that the Related Organizations
               Module be revised to include a reference as to the
               availability of the FR Y-6 and FR Y-8 Reports in
               the Preliminary Review Section. This request will             April 2003           No              Yes                No                 Open
               be presented to the Interagency ED Module
               Maintenance Committee at its next meeting in
               April. If the Federal Reserve’s representatives
               concur with this request, the revision will be


17
     Resolved –     (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                    (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                    (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long as
                    management provides an amount.
18
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved through
implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the recommendation.

19
     Once the OIG dispositions the recommendation, it can then be closed.


                                                                                   62
                                                                                                                         APPENDIX X

         included in the next update to the module.
                                                                                                                          Open
 Rec.                                                             Expected       Monetary   Resolved:   Dispositioned:      or
Number     Corrective Action: Taken or Planned/Status          Completion Date   Benefits   Yes or No     Yes or No       Closed
  3      DSC noted that current review programs cover all
         areas of examination activities, including the
         review of the examination of transactions with
         affiliates, and agreed to re-emphasize this area in    June 30, 2003      No         Yes            No           Open
         the scope of the sample at future reviews.
         Guidance will be added to DSC’s Regional Office
         Review Program to ensure adequate review of
         examination procedures of affiliate activities.




                                                                       63
